No. _______
IN THE
SUPREME COURT OF THE UNITED STATES
KELVIN BAEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Rabea Jamal Zayed, do hereby certify that on this date, May 10, 2021, one
copy of the foregoing Motion for Leave to Proceed In Forma Pauperis, Petition for a
Writ of Certiorari, and Appendix were sent by USPS Express Mail, postage prepaid
to:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
s/ Rabea Jamal Zayed
Rabea Jamal Zayed
Counsel for Petitioner
Kelvin Baez

4837-2994-8905\

